   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2007 AND FY 2006
      Federal Aviation Administration

        Report Number: QC-2008-005
       Date Issued: November 9, 2007
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                                        Date:    November 9, 2007
           Financial Statements for FY 2007 and FY 2006,
           Federal Aviation Administration
           Report Number: QC-2008-005

  From:    Calvin L. Scovel III                                                          Reply to
                                                                                         Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Acting Federal Aviation Administrator

           The audit of the Federal Aviation Administration’s (FAA) Financial Statements as
           of and for the years ended September 30, 2007, and September 30, 2006, was
           completed by KPMG LLP of Washington, D.C. (see Attachment). We performed
           a quality control review of the audit work to ensure that it complied with
           applicable standards. These standards include the Chief Financial Officers Act, as
           amended; Generally Accepted Government Auditing Standards; and Office of
           Management and Budget Bulletin 07-04, “Audit Requirements for Federal
           Financial Statements.”

           In its fiscal year 2006 report, dated November 3, 2006, KPMG qualified its
           opinion because FAA was unable to provide sufficient evidence to support the
           accuracy and completeness of the Construction in Progress 1 (CIP) account balance
           or related transactions that might have occurred affecting net cost. Because of the
           significance of the CIP balance and adjustments that might have resulted from
           management’s review of CIP, FAA was unable to represent that the CIP account
           balance totaling $4.7 billion as of September 30, 2006, was fairly stated.

           During fiscal year 2007, FAA executed an extensive corrective action plan,
           including a complete review of the CIP balance reported as of
           September 30, 2006. FAA’s review of CIP resulted in a material restatement of its
           fiscal year 2006 financial statements, including the reclassification of $1.7 billion


           1
               Construction in Progress is a component of the Property, Plant, and Equipment line, and represents assets that are
               under construction or that have not yet been placed into service.
                                                                                   2


from CIP to in-use property and more than $900 million from CIP to expense.
The restated CIP balance as of September 30, 2006, was, then, $2.1 billion.

KPMG concluded that FAA’s consolidated financial statements presented fairly,
in all material respects, the financial position of FAA as of September 30, 2007
and September 30, 2006, and its net costs, changes in net position, and budgetary
resources, for the years then ended, in conformity with accounting principles
generally accepted in the United States. However, as discussed in KPMG’s report,
internal controls related to the timely processing of transactions and accounting for
Property, Plant, and Equipment and CIP continues to be a material weakness. In
addition, the report presented two significant deficiencies, and one instance of
noncompliance with laws and regulations.

Material Weakness

   1. Timely Processing of Transactions and Accounting for Property, Plant, and
      Equipment, including the Construction in Progress Account

Significant Deficiencies

   1. Information Technology Controls over FAA and Third-Party Systems and
      Applications
   2. Management Oversight and Reporting of Inventory

Noncompliance with Laws and Regulations

   1. Federal Financial Management Improvement Act of 1996 (FFMIA)

KPMG made 12 recommendations for corrective action; we agree with all and,
therefore, are making no additional recommendations. FAA concurred with the
material weakness, significant deficiencies, and noncompliance; agreed with the
recommendations; and committed to implementing corrective action during fiscal
year 2008. In accordance with DOT Order 8000.1C, the corrective actions taken
in response to the recommendations are subject to follow-up. In our opinion, the
audit work performed by KPMG complied with applicable standards.

We appreciate the cooperation and assistance of FAA, Office of Financial
Management, and KPMG representatives. If we can answer any questions, please
call me at (202) 366-1959, or Rebecca C. Leng, Assistant Inspector General for
Financial and Information Technology Audits, at (202) 366-1496.

Attachment                                #
